*
THE SUPREME Court OF
Anthony Leon Latimer alka Gervald Smith =

Ben Jones. e+ al,

x

NOW TOMES +he, Petitioner, Anthony Leon Latimer al
esting this Honorgble court to reconsider and G
rehearing, Pursuant +o Rule 44, based on the reg
ing:

retitioner, = ® THE uNrrep STATES
V. * DockET Not 20-5499

Respordents, yr

” ke kek k tk ke kg kt ¢* £ &
(DEMAND ORAL HEARING)

—PETETION FoR RECONSEDERAT roy _

ls Gertaid smith, reg-
rant this Fetition for
SONS States 35 folloy)-

iH Spec thi to rec-
|. Petitioner respectfully Nequest this Honorable Supreme Court roo
onsider based on 3 breach of the 4h Amendment, pertaining to this Cl
dim having substantial Grounds not Previously presented. (see attic,
hed Memorandum Opinion p9.*\0 Highlighted 4, at the very bottom y ExH.-A),

2, The reconsideration wit be based upon the the evidence leading to
the breach of 4% Amendment Right.

@ the Sustification OF
3, Evidence Clearly Shows no preponderance for , i Hen
the search of the residence, the Search only tum up Zon
: i‘
that further indicated personal use by tho deceased.

ose iti had no Knowledge of He
4. AS Per the Affidavit of truthsthe petitioner toton Pain anedtra+.
jrup use by the deceased other than the prescription Pain medicat
ion fora recent Surgery.

  

RECEIVED
DEC 3 2020

OFFICE oF

     

(1 of 2)

      
SUPREME TOURT DOCKET NO, 2 20-5399

5. Judge Kenneth long discovered thot (NT.F. Sot, nme) rest
Submitted 3 fraudulent application for 3 Search an Seize Warrant Fo
the dec4eased residence, ard Struck +he perSured Portion oF the Search
ard seizure AFFidavit, comfirming No Preponderance of evidence to Sys-
tify 3 Search, Which Was the respondent on \y allege Probable Cause.

6. The respondent (N.T.F. 23+. Ben Sones) chose to Still execute the bart -
antless Search and SeiZurey and the Only additional contra band fourd

W8s drugs in the deceased on CFects (Louis vuitton Purse), which
only indicates more evidence of Persona| use by the deceased,

be free From Warrantless Searche’s ang Seizures do +o the Invalidity oF
the Warrant, The Warrant was also Invalid dueto <
3) The Warrant was not Sioned in Blue.
DI+ was nor Signed With the fur) name o£

the authorizing aoent.
OI was not Signed by 3 SupcE,

CONCLUSION

Petitioney- PYaYS +h3t this Honorable Gour+ GRANT this Petition, and Recon-
Sider, and Reverse fora Rehearing or any further Relier deem neccessary,

7 All Rights Reserved
Leck. Me sino retain 45
Date: December 18,2020 _

Anthony Leon Latimer ajkla eertald

Smith-*1956719/4¢6791,
(2 of 3)
